                                                               Issue Date
                                                                    August 27, 2007
                                                               Audit Report Number
                                                                    2007-PH-1012




TO:        Charles E. Halm, Director, Office of Community Planning and Development,
            Baltimore Field Office, 3BD




FROM:      John P. Buck, Regional Inspector General for Audit, Philadelphia Regional
            Office, 3AGA

SUBJECT:   The State of Maryland Did Not Always Administer Its Homeownership
            Assistance Program in Accordance with Federal Regulations and Written
            Agreements


                                 HIGHLIGHTS

 What We Audited and Why

           We audited the State of Maryland’s (State) HOME Investment Partnerships
           program (HOME) as part of our annual audit plan. Our audit objective was to
           determine whether the State administered its HOME-assisted single-family
           homeownership assistance program in accordance with federal regulations.

 What We Found


           The State did not always administer its HOME-assisted single-family
           homeownership assistance program in accordance with federal regulations and
           written agreements. We found no violations of conflict-of-interest and modest
           home provisions, and the State adequately enforced the recapture provisions by
           securing liens against the assisted properties through deeds of trusts. However,
           the State did not have adequate internal controls to effectively monitor its
           subrecipients’ administration of the program. Specifically, the State did not
           adequately monitor its subrecipients’ performance to ensure that (1) records to
           support property standard compliance were maintained, (2) hazard insurance
           requirements were enforced, and (3) income eligibility was properly determined.
           These noncompliance deficiencies occurred because the State did not have the
           staffing capabilities to adequately monitor its program. As a result, it awarded
           $73,000 in unsupported HOME funds.

What We Recommend


           We recommend that the director of HUD’s Office of Community Planning and
           Development, Baltimore Field Office, require the State to submit all supporting
           documentation to HUD to support the $73,000 in HOME funds awarded. Any
           amounts determined to be ineligible should be repaid from nonfederal funds.
           Also, we recommend that the State establish and implement written monitoring
           policies to ensure adequate monitoring of its subrecipients’ compliance with all
           federal requirements and written agreements to include periodic in-house reviews
           and on-site monitoring of its subrecipients.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We provided the draft report to the State on July 19, 2007. We discussed the
           report with the State at the exit conference on July 31, 2007. The State provided
           its written comments on August 6, 2007. The State generally agreed with the
           audit and stated it was actively addressing audit recommendations it had not
           already implemented. The complete text of the State’s response, along with our
           evaluation of that response, can be found in appendix B of this report.




                                            2
                           TABLE OF CONTENTS

Background and Objectives                                                           4

Results of Audit
      Finding: The State’s Administration of Its Homeownership Assistance Program   5
      Did Not Always Comply with Federal Regulations and Written Agreements

Scope and Methodology                                                               10

Internal Controls                                                                   11

Appendixes
   A. Schedule of Unsupported Costs                                                 12
   B. Auditee Comments and OIG’s Evaluation                                         13




                                           3
                          BACKGROUND AND OBJECTIVES

The HOME Investment Partnership Program is authorized under Title II of the Cranston-
Gonzalez National Affordable Housing Act, as amended, and is regulated by 24 CFR [Code of
Federal Regulations] Part 92. HOME is the largest federal block grant provided to state and
local governments and is designed to create affordable housing for low-income households.
Home funds are awarded annually as formula grants to participating jurisdictions. States are
automatically eligible for HOME funds and receive either their formula allocation or $3 million,
whichever is greater. Participating jurisdictions may choose among a broad range of eligible
activities using HOME funds. These activities may include providing home purchases or
rehabilitation financing assistance to eligible homebuyers, building or rehabilitating housing for
rent or ownership, or obtaining property to make way for HOME-assisted developments.

As a participating jurisdiction, the State of Maryland (State) administers its HOME program
through its Department of Housing and Community Development. The State received $16.8
million in HOME grants from the U.S. Department of Housing and Urban Development (HUD)
over a two-year period.

                                        Grant year          Grant amount
                                          2004               $8,797,579 1
                                          2005               $8,005,956 2
                                          Total              $16,803,535

The State primarily spends its HOME funds on constructing or rehabilitating multifamily rental
housing and providing assistance for homeownership opportunities and single-family
rehabilitation. The State operates its single-family homeownership assistance program through
its HOME Initiatives program, which is administered by subrecipients.

Our audit objective was to determine whether the State administered its program in accordance
with federal requirements. To answer this audit objective, we reviewed the State’s compliance in
five HOME program areas. Specifically, we determined whether (1) HOME recipients were
income eligible and whether the determinations were made based on adequate, reliable source
documents, (2) there were safeguards over HOME funds to ensure a maximum return on
recapture provisions, (3) conflict-of-interest provisions were enforced, (4) assisted properties
were modest, and (5) assisted properties complied with applicable property standards.




1
    $8,797,579 includes $620,318 in American Dream Downpayment Initiative funds.
2
    $8,005,956 also includes $191,464 in American Dream Downpayment Initiative funds.



                                                        4
                               RESULTS OF AUDIT


Finding: The State’s Administration of Its Homeownership Assistance
Program Did Not Always Comply with Federal Regulations and Written
Agreements
The State did not always administer its single-family homeownership assistance program in
accordance with federal regulations and written agreements. These noncompliance issues
occurred because the State did not implement an adequate monitoring program for its
subrecipients’ administration of HOME funds. As a result, the State awarded $73,000 in
unsupported HOME funds. Consequently, both the State and HUD lacked assurance that HOME
funds were used to assist very low- and low-income families and individuals in affordable
homeownership opportunities, which is the primary goal of the HOME program.



 The State Did Not Implement
 an Adequate Monitoring
 Program


             We reviewed 39 of the 90 HOME funds awarded for homeownership assistance
             during the audit period and found noncompliance deficiencies with seven (18
             percent) awards. The State did not always adequately ensure that (1) records were
             maintained to support compliance with applicable property standards, (2)
             homebuyers obtained appropriate hazard insurance policies, and (3) income
             eligibility of homebuyers was properly determined. The following table
             summarizes the noncompliance issues noted during the audit.
               HOME       HOME       State could       No             No      Unsupported
              recipient   funds      not support     hazard     documented       costs
                                      property     insurance       income
                                      standard       policy       eligibility
                                     compliance                determinations
                 1        $10,000         X                           X         $10,000
                 2        $10,000         X                           X         $10,000
                 3        $53,000         X           X                         $53,000
                 4        $46,250         X
                 5        $24,344         X
                 6        $25,150         X
                 7         $19,000        X
               Totals     $187,744                                               $73,000




                                              5
The State Did Not Always
Maintain Records to Support
Compliance with Property
Standards


           All properties assisted with HOME funds must comply with applicable property
           standards. Based on regulations at 24 CFR [Code of Federal Regulations]
           92.251(a)(1) and (2), newly constructed housing must meet the model energy
           code published by the Council of American Building Officials, and properties
           acquired with HOME funds must meet all applicable state and local housing
           quality standards and code requirements. Regulations at 24 CFR 92.508(a)(3)(iv)
           require the participating jurisdiction to establish and maintain sufficient records to
           enable HUD to determine whether it has met this requirement.

           We identified seven assisted properties for which the State and three of its
           subrecipients did not maintain documentation to support compliance with
           applicable property standards. Instead, we obtained the supporting documents
           from third-party sources to determine compliance with this program requirement.
           Specifically, we obtained certifications and checklists from the respective local
           governments. Although we determined that the seven properties complied with
           applicable property standards, the State neither maintained the required
           documentation nor determined this compliance when it awarded the HOME
           funds.

The State Did Not Always
Safeguard HOME Funds as
Required


           The State did not ensure that three homebuyers receiving $73,000 in HOME
           funds obtained hazard insurance policies in accordance with its recapture
           provision. In one case, neither the State nor its subrecipient provided evidence of
           hazard insurance to support compliance with this requirement. In two other cases,
           the State did not ensure the hazard insurance policies on two properties assisted
           listed the State’s Department of Housing and Community Development (DHCD)
           as a loss payee, as required in its own policies. However, the State has provided
           updated hazard insurance policies which now lists the State’s DHCD as a loss
           payee.

           The HOME program requires participating jurisdictions to choose either the
           recapture or resale provisions to ensure affordability. Regulations at 24 CFR
           [Code of Federal Regulations] 92.254(a)(5)(ii) state that the recapture provisions
           must ensure that the participating jurisdiction recoups all or a portion of the
           HOME assistance to the homebuyers if the housing does not continue to be the
           principal residence of the family for the duration of the period of affordability.



                                             6
            The supporting provision of the State’s written administration agreement with its
            subrecipients requires evidence of hazard insurance policies which name the State
            as a loss/mortgagee payee. The State requires evidence of hazard insurance
            policies to protect the HOME investment. The State’s requirement for evidence
            of hazard insurance polices safeguards HOME funds to ensure the recapture of the
            funds even if the properties are affected by fire or flood. The State also enforces
            the recapture provision by securing liens against the properties through deeds of
            trust. The State’s deeds of trust with homebuyers ensure its recapture of HOME
            funds if the assisted properties are free of hazards from fire or flood.

Two Income Eligibility
Determinations Were
Questionable


            The State awarded HOME funds totaling $20,000 to two homebuyers without
            ensuring that a subrecipient either followed HOME requirements to determine
            income eligibility or fulfilled its written administration agreement to approve
            HOME funds to eligible homebuyers. In this regard, the audit showed that the
            income requirements the State used to determine income eligibility were not
            proper. Regulations at 24 CFR [Code of Federal Regulations] 92.203(a) and
            (d)(2) state that the HOME program has income targeting requirements for the
            HOME program and for HOME projects. Therefore, the participating jurisdiction
            must determine each family is income eligible by determining the family’s annual
            income. Participating jurisdictions are required to reexamine the family’s income
            if more than six months has elapsed since the participating jurisdiction determined
            the family to be income eligible. The State’s written agreement for the
            administration of HOME funds authorizes its subrecipients to approve HOME
            funds on its behalf to eligible homebuyers.

The State Did Not Adequately
Monitor the Program


            The State did not implement an adequate monitoring program to ensure that its
            subrecipients complied with federal regulations and written agreements.
            Regulations at 24 CFR [Code of Federal Regulations] 92.504(a) state that the
            participating jurisdiction is responsible for managing the day-to-day operations of
            its HOME program, ensuring that HOME funds are used in accordance with all
            program requirements and written agreements, and taking appropriate action
            when performance problems arise. The use of State recipients, subrecipients, or
            contractors does not relieve the participating jurisdiction of this responsibility.
            The performance of each contractor or subrecipient must be reviewed at least
            annually.




                                             7
             The State had general policies requiring its subrecipients to maintain documents
             to support program requirements such as (1) the income of HOME recipients, (2)
             property standards, and (3) the purchase price of properties. However, the State
             did not have effective internal controls to monitor its subrecipients to ensure that
             they complied with federal requirements and written agreements. The State
             believed that it performed its monitoring duties as required by reviewing the
             beneficiary data reported by its subrecipients for HOME eligibility
             determinations. However, it did not require or review documentation to verify the
             HOME eligibility determined by its subrecipients. In addition, the State did not
             perform on-site reviews of its subrecipients during the audit period.

Conclusion


             The State did not administer its homeownership program in accordance with
             federal regulations and written agreements. Specifically, the State did not ensure
             (1) that records were maintained to support compliance with property standards,
             (2) that its requirement for hazard insurance policies were followed, and (3) the
             accuracy of income eligibility determinations. As a result, the State awarded
             $73,000 in unsupported costs. These noncompliance deficiencies occurred
             because the State did not implement adequate internal controls and did not
             adequately monitor its subrecipients’ administration of its homeownership
             program. The State contends that this was due to a staffing shortage and that it is
             working to strengthen its internal controls over its homeownership program to
             ensure compliance with applicable requirements. Recognizing a monitoring
             weakness on its part, the State has taken action to improve its administration and
             hired a full-time HOME manager in December 2006. The current HOME
             manager has developed a monitoring schedule and has begun monitoring the
             State’s subrecipients. The State also has developed a monitoring checklist to use
             for monitoring visits.

             While the State was proactive during the audit and began to improve its
             monitoring, this does not negate its lack of monitoring during our audit period.
             In this regard, the State also needs to ensure that it fully implements the detailed
             recommendations contained in this report to ensure that these problems do not
             recur. By not adequately monitoring its subrecipients’ administration of the
             homeownership program, the State and HUD lacked assurance that HOME funds
             were administered in accordance with federal requirements and written
             agreements. Also, the State and HUD lacked assurance that HOME funds were
             used to assist very low- and low-income families and individuals in obtaining
             affordable housing.




                                               8
Recommendations

          We recommend that the director of HUD’s Baltimore Office of Community
          Planning and Development, Baltimore Field Office, require the State to

          1A.     Provide adequate documentation to support the $73,000 in unsupported
                  costs or repay the funds from nonfederal funds.

          1B.     Determine which property standards apply in each local jurisdiction,
                  communicate the standards to the subrecipients, and institute procedures to
                  sample compliance periodically by conducting in-house and on-site
                  reviews.

          1C.     Reiterate its policy for evidence of hazard insurance policies which name
                  the State as a loss/mortgagee payee.

          1D.     Require subrecipients to follow its policy and to maintain required
                  documents in project files.

          1E.     Require subrecipients to follow federal requirements to determine the
                  income eligibility of homebuyers, ensure that the income documents used
                  are current, and ensure that its subrecipients determine the income
                  eligibility of HOME recipients.

          1F.     Review its written agreement with its subrecipients for the administration
                  of the HOME Initiatives program to ensure that it includes all pertinent
                  HOME requirements, such as income eligibility determinations, property
                  standards, and recordkeeping, and that it is consistent with 24 CFR[Code
                  of Federal Regulations] 92.504(c)(1) and (2).

          1G.     Develop and implement written oversight procedures to include training
                  for its subrecipients, periodic in-house reviews of a sample of cases, and
                  on-site monitoring.




                                            9
                        SCOPE AND METHODOLOGY

To accomplish the audit objectives, we:

   •   Reviewed applicable federal regulations at 24 CFR [Code of Federal Regulations] Part
       92; Building HOME; Technical Guide for Determining Income and Allowances for the
       HOME program; FHA Mortgage Limits and HUD Income Limits; and the State’s
       policies relating to the administration of its HOME Initiatives program.

   •   Conducted interviews with officials and employees of HUD’s Office of Community
       Planning and Development, the State, and its subrecipients of the HOME Initiatives
       program.

   •   Obtained a listing of the State’s HOME awards for its homeownership assistance
       activities awarded between July 1, 2004, and June 30, 2006, and selected a statistical
       sample of 39 out of a universe of 90 awards to determine whether HOME program
       requirements were met.

   •   Requested the selected 39 homeownership project files from the respective subrecipients
       that administered the HOME award. We reviewed the project files to determine the
       HOME income eligibility of the recipients by both reviewing the adequacy of the income
       documents and gross annual income calculations. We then compared the recalculated
       incomes with HUD’s income limits in the year of HOME commitment and metropolitan
       statistical area to ensure that they were within the limits. We also compared the purchase
       prices on contracts of sale or settlement statements to HUD’s maximum purchase price
       limits for metropolitan statistical area and year of HOME commitments. We reviewed
       documents such as housing quality standards checklists, certificates of use and
       occupancy, certifications of local governments, and model energy code compliance
       checklists to support compliance with applicable property standards. Lastly, we reviewed
       hazard insurance policies to ensure that the State was listed as a loss/mortgagee payee.

   •   Reviewed the executed written administration agreements established between the State
       and its subrecipients to determine the authority to administer HOME funds, requirements
       to support compliance with income eligibility, property standards, hazard insurance,
       conflict-of-interest provisions, and recapture/resale provisions regarding the
       administration of the HOME Initiatives program.

We performed our on-site fieldwork between November 2006 and February 2007 at the office of
the State, located at 100 Community Place, Crownsville, Maryland. The audit generally covered
the period July 2004 through June 2006 but was expanded when necessary. To achieve our audit
objective, we relied in part on computer-processed data within the State’s database. Although
we did not perform a detailed assessment of the reliability of the data, we did perform a minimal
level of testing and found the data to be adequate for our purposes.

We performed our review in accordance with generally accepted government auditing standards.


                                               10
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls


              We determined the following internal controls were relevant to our audit objective:

              •   Management oversight processes - Policies and controls that management has
                  in place to reasonably ensure that its subrecipients follow HOME program
                  requirements and written agreements.

              •   Monitoring of subrecipients’ administration of the HOME program - Policies
                  and procedures to ensure that adequate reviews are performed to detect
                  noncompliance with both federal requirements and written agreements.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.

 Significant Weaknesses


              Based on our review, we believe the following items are significant weaknesses:

              •   Lack of on-site monitoring reviews of the State’s subrecipients.

              •   Lack of adequate controls over the administration of its HOME-assisted
                  homeownership assistance program operated by subrecipients.




                                               11
                                   APPENDIXES


Appendix A

               SCHEDULE OF UNSUPPORTED COSTS


                           Recommendation                Unsupported
                                  number
                                          1A                  $73,000



1/   Unsupported costs are those costs to a HUD-financed or HUD-insured program or
     activity when we cannot determine the eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.




                                             12
Appendix B

       AUDITEE COMMENTS AND OIG’s EVALUATION


                        Auditee Comments




Comment 1




Comment 1




                         13
Comment 2




Comment 3




            14
Comment 4




            15
Comment 5




            16
                         OIG Evaluation of Auditee Comments

Comment 1   We adjusted the unsupported costs from $126,495 to $73,000 in the final audit
            report based on additional documentation the State provided after the audit. The
            State will need to provide further documentation to support the remaining $73,000
            in unsupported costs or repay the funds from nonfederal funds. We are
            encouraged that the State has replied that it is actively addressing the audit
            recommendations it has not yet implemented.

Comment 2   We are encouraged by the interim measures the State has instituted to comply
            with HOME program requirements. The State should also ensure both its HOME
            monitoring plan and HOME Initiatives Policies are approved by HUD.

Comment 3   While the documentation of hazard insurance is not a federal requirement, the
            State instituted this requirement in its own policies and agreements with the
            homebuyers receiving HOME funds. As a result, the State is required to follow
            written agreements as required in 24 Code of Federal Regulations (CFR), Part
            92.504(a). Further, we believe the State’s requirement for evidence of hazard
            insurance is an added safeguard to further protect HOME funds. We are
            encouraged that the State has taken steps to reiterate to its sub-recipients via both
            correspondence and in its revised HOME Initiatives Policies and Procedures of its
            hazard insurance requirement.

Comment 4   The audit showed and the State agreed that the income requirements used to
            determine income eligibility were not proper. As a result, the State needs to
            support that these two homebuyers were income eligible when it qualified them
            for HOME funds with current income documentation at the time. We are
            encouraged by the actions the State is taking to address federal HOME
            requirements regarding determining income eligibility.

Comment 5   We acknowledge the State has taken steps to remedy its monitoring deficiencies
            by hiring a full-time HOME manager. We are encouraged by the State’s actions to
            ensure it complies with its oversight responsibilities as a participating jurisdiction.
            The State should obtain HUD’s approval of its HOME Monitoring Plan and its
            HOME Initiatives Policies and Procedures to ensure it complies with program
            requirements.




                                              17
